<html>
<title> - REPORTING THE NEWS IN CHINA: FIRSTHAND ACCOUNTS AND CURRENT TRENDS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





   REPORTING THE NEWS IN CHINA: FIRSTHAND ACCOUNTS AND CURRENT TRENDS

=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 31, 2009

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov



                  U.S. GOVERNMENT PRINTING OFFICE
54-372 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001












                             CO N T E N T S

                              ----------                              
                                                                   Page
Opening statement of Douglas Grob, Cochairman's Senior Staff 
  Member, Congressional-Executive Commission on China............     1
Liu, Lawrence, Senior Counsel, Congressional-Executive Commission 
  on China.......................................................     1
Ford, Jocelyn, 2007-2009 Chair, Media Freedoms Committee, Foreign 
  Correspondents' Club of China; freelance radio and multimedia 
  journalist.....................................................     3
McLaughlin, Kathleen E., Chair, Media Freedoms Committee and 
  Secretary, Foreign Correspondents' Club of China; China 
  Correspondent for BNA, Inc., and freelance journalist..........     6
Esarey, Ashley, Visiting Assistant Professor of Politics, Whitman 
  College........................................................     9

                                APPENDIX
                          Prepared Statements

McLaughlin, Kathleen E...........................................    26
Esarey, Ashley...................................................    28

                       Submissions for the Record

Prepared Statement of James Fallows, National Correspondent, The 
  Atlantic Magazine..............................................    31
From the Atlantic, ``Their Own Worst Enemy,'' by James Fallows, 
  November 2008..................................................    33
From the Atlantic, ``The Connection Has Been Reset,'' by James 
  Fallows, March 2008............................................    38
From a Freedom House Special Report, Freedom At Issue, ``Speak No 
  Evil--Mass Media Control in Contemporary China,'' by Ashley 
  Esarey, February 2006..........................................    44
From Asian Survey, Vol. XLVIII, No. 5, September/October 2008, 
  ``Political Expression in the Chinese Blogosphere--Below the 
  Radar,'' by Ashley Esarey and Xiao Qiang.......................    56

 
                      REPORTING THE NEWS IN CHINA:
                 FIRSTHAND ACCOUNTS AND CURRENT TRENDS

                              ----------                              


                         FRIDAY, JULY 31, 2009

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 2:03 
p.m., in room 628, Dirksen Senate Office Building, Douglas 
Grob, Cochairman's Senior Staff Member, presiding.
    Also present: Lawrence Liu, Senior Counsel.

 OPENING STATEMENT OF DOUGLAS GROB, COCHAIRMAN'S SENIOR STAFF 
      MEMBER, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Mr. Grob. Good afternoon, everybody, and thank you very 
much for attending the Congressional-Executive Commission on 
China's ninth public roundtable for the 111th Congress. I'd 
like to welcome you on behalf of Cochairman Sandy Levin, and 
for our Staff Director, Charlotte Oldham Moore, I'd like to 
welcome you on behalf of Chairman Byron Dorgan of the 
Congressional-Executive Commission on China.
    We're very pleased to see you here today. The House and 
Senate, as you know, have been pulling very late nights 
preparing to go out of session, so that you would take your 
time at this busy juncture to be with us today is something 
that we're grateful for, and that speaks to the importance of 
the topic of our roundtable this morning: Reporting the News in 
China: Firsthand Accounts and Current Trends.
    I'd like to, at this point, turn the floor over to Lawrence 
Liu, to my right, Senior Counsel with the Commission, and our 
staff specialist on free expression, free flow of information, 
and the Internet in China.
    So, Lawrence, please.

   STATEMENT OF LAWRENCE LIU, SENIOR COUNSEL, CONGRESSIONAL-
                 EXECUTIVE COMMISSION ON CHINA

    Mr. Liu. We are convening this roundtable nearly a year 
after China hosted the Olympics. The timing is significant 
because it was the Olympics that prompted Chinese officials to 
grant foreign journalists allowed into China new freedom to 
report.
    This past year has been significant for domestic and 
foreign journalists in China for other reasons as well. 
Journalists have had to contend with covering news amid the 
global economic downturn and concerns from Chinese officials 
over maintaining social stability.
    2009 also contains a number of sensitive anniversaries in 
China, including the 20th anniversary of the Tiananmen 
protests, the 50th anniversary of the Dalai Lama's flight into 
exile, and the 60th anniversary of the founding of the People's 
Republic of China, to name a few.
    The Internet continues to play a major role in shaping news 
coverage, and earlier this month protests and violence broke 
out in Xinjiang, testing the Chinese Government's commitment to 
openness and transparency. We are lucky today to have a group 
of panelists who can offer both a first-person perspective and 
a broader analysis on the impact of these events on reporting 
the news in China and what the last year has meant for press 
freedom.
    Before introducing the panelists, I want to take this brief 
opportunity to let you know how the Commission has been 
covering these issues. In connection with this roundtable we 
have put out a quick brief that provides an overview of press 
freedom issues in China. We publish ongoing analysis on our Web 
site in a periodic newsletter. We recently wrote several pieces 
analyzing the Chinese Government's attempts to require all 
computers sold in China to come pre-installed with the Green 
Dam filtering software. Finally, we will be issuing our 2009 
Annual Report this October.
    Now I would like to introduce the panelists. Sitting to my 
left is Jocelyn Ford, a Beijing-based multimedia journalist. 
During her eight years in China she served as Bureau Chief for 
U.S. Public Radio's Marketplace, and you may have heard her on 
other public radio shows such as Studio 360.
    From 2007 to 2009, she chaired the Media Freedoms Committee 
at the Foreign Correspondents' Club of China. She also has the 
unique perspective of having worked for the state-run China 
Radio International. She is currently working on her first 
documentary about a widowed Tibetan migrant worker.
    Also sitting to my left is Kathleen McLaughlin, the 
Beijing-based China correspondent for BNA, where she writes 
about legislative and regulatory affairs in China. She is 
currently head of the Media Freedoms Committee for the Foreign 
Correspondents' Club of China. She has spent most of the past 
decade covering news in China, and you may have seen her 
articles also in the Far Eastern Economic Review and Christian 
Science Monitor, including a recent piece on Uyghur workers 
from the toy factory that sparked recent protests in Xinjiang.
    And finally, sitting to my right is Ashley Esarey, a 
Visiting Assistant Professor of Politics at Whitman College in 
Washington State. In June, he completed the An Wang Post-
Doctoral Fellowship at Harvard, and previously was a professor 
at Middlebury 
College. He has done extensive research on China's media and 
Internet, including for, Freedom House, and we have made copies 
of two of his pieces available at the door. He is currently 
working on a book: ``The Challenge of Truth: Media and Power in 
Contemporary China.''
    Mr. Grob. Thank you, Lawrence.
    I'd just like to note that, unfortunately, James Fallows, 
whom we had hoped to have with us today, has taken ill, we 
learned this morning, and is unable to join us.
    Also, I'd like to just mention, before I turn the floor 
over to Jocelyn Ford for her remarks, that we'll proceed as 
follows: our panelists will give brief statements, after which 
we will open the floor to questions from the audience. We are 
creating a transcript of this event to be published on our Web 
site, so when we come to the Q&A we will have further 
guidelines on how the Q&A will proceed.
    But without further ado, I'd like to ask Jocelyn for her 
remarks.

 STATEMENT OF JOCELYN FORD, 2007-2009 CHAIR OF MEDIA FREEDOMS 
  COMMITTEE, FOREIGN CORRESPONDENTS' CLUB OF CHINA; FREELANCE 
                RADIO AND MULTIMEDIA JOURNALIST

    Ms. Ford. Thank you for the introduction and thank you for 
inviting us here.
    Thank you, the audience, for your interest in this subject. 
As China becomes more influential in the world it is 
increasingly important for the world to have access to accurate 
and timely information out of China. Unfortunately, China's 
advances in openness have lagged behind its economic advances. 
So, I'm glad that you all have an interest in this topic.
    Today I will introduce the Foreign Correspondents' Club of 
China, tell you what reporting was like before the Olympics as 
well as how the Olympics changed reporting conditions for 
foreign correspondents, and outline obstacles and issues we 
still have to deal with.
    The Foreign Correspondents' Club of China [FCCC], as we 
know it today, was started around 1981. Today's membership 
includes about 260 journalists from countries all over the 
world. We also have associate members from embassies and 
companies. Our activities are open to Chinese nationals, but we 
do not have Chinese members. Chinese authorities consider the 
Foreign Correspondents' Club of China an illegal organization.
    As some of you may know, the Chinese Government requires 
nonprofit associations and organizations to register. However, 
the FCCC board has been told we are not welcome to register. To 
register, we would need a government organ to support our 
request and no government office is willing to do so.
    First, let me give you the big picture about the Olympics. 
If you talk to foreign correspondents who have been in China, 
say, since the 1990s--I arrived in 2001--they will tell you 
that reporting conditions are pretty good today. From a long-
term perspective, China has moved in the right direction.
    Did the Olympics help improve working conditions for 
foreign media faster than would have happened had China not 
hosted the Games? Definitely yes. But the government is not 
making its best effort to make good on the Olympic promises it 
made to foreign media and on information openness. It would be 
unrealistic to expect conditions to improve dramatically 
overnight. Change does not happen that rapidly in any country, 
and certainly not in China.
    But in China, too often regulations and laws are often not 
enforced. Sometimes it feels like we've gone two steps forward, 
one step backward, two steps forward, and maybe three steps 
backward. In general, China is moving in the right direction, 
but it is important to remain vigilant. One example I hope 
concerned parties will keep an eye on is the revised State 
Secrets Law, which was recently opened for comment.
    So what was it like reporting before the Olympics? 
Officially, according to the rules, foreign correspondents were 
required to get permission every time they wanted to leave 
their home base, which in my case, as I was registered in 
Beijing, would be Beijing. So if I wanted to go across the 
country to interview somebody, according to the rules, I needed 
to get permission.
    Now, of course, when reporters try to cover a topic the 
government wants to keep hushed up, say AIDS villages in Henan 
Province, they will not be granted permission. So, as a result, 
reporters played cat-and-mouse. The reporter might travel in 
the middle of the night to the village, wrap up reporting by 2 
o'clock in the morning, and leave, hopefully while the 
officials were sleeping.
    Reporting sometimes felt like cloak-and-dagger work, 
without the daggers, of course. For example, in 2002 I went to 
cover unrest in a northern oil town. Every time there was a 
knock on my hotel door, my colleague feared it would be the 
authorities who had come to detain us for being in the city 
without permission. At the time, it was fairly safe to report 
openly on non-controversial issues, even without permission, 
but reporters covering stories the local or central government 
regarded as ``sensitive'' would need to take extra precautions 
to avoid being discovered and detained.
    In the run-up to the Olympics, the Foreign Correspondents' 
Club sought to lobby the Chinese Government to change some of 
these restricting rules, and in 2006 three of us had an 
informal meeting with a Foreign Ministry official. Remember, 
we're an illegal organization, so we met as ``friends,'' not as 
representatives of the Foreign Correspondents' Club of China.
    In that meeting we said that we would like to see scrapped 
the rule that limits our ability to travel, and the official 
said, ``Well, how about if, instead of getting permission to 
go, you just sent a fax in advance announcing you are coming? 
''
    Presumably under such a system the sources the journalist 
wished to interview might be barred from meeting the reporter. 
So we said, if the fax notification was voluntary, that would 
be fine. But it shouldn't be required.
    The official, at that meeting, told us that the government 
was serious about its Olympic promise to allow unrestricted 
media coverage and that it planned to have rules in place a 
year in advance. We were very pleasantly surprised when those 
rules came into play on January 1, 2007, a year and a half 
ahead of the Games, and they went further than we had expected. 
They did not require fax pre-notification. Basically the new 
rules, which were called ``temporary rules'' for the Olympics, 
allowed foreign correspondents to interview anybody who agreed 
to be interviewed. Tibet was still off-limits, but otherwise we 
could, according to the regulations, roam the country freely. 
This was progress. Of course, as I said earlier, in China 
implementation of laws and regulations is often a problem, and 
the ``free reporting'' regulation is no exception.
    After the regulation was brought into force in January 2007 
there were a number of high-profile news stories, including the 
Tibet unrest in March 2008 which Kathleen will be talking 
about. In 2008, the FCCC confirmed 180 violations of the 
regulation. We did not have the manpower to follow up on each 
incident we were informed of, and I am sure there were many 
more we didn't even hear about.
    Foreign correspondents didn't know what to expect after the 
Olympics were over. But the FCCC was pleased when the temporary 
regulation, after a few amendments, was made permanent in 
October 2008.
    As can be expected, there are a lot of outstanding 
problems, but overall correspondents feel empowered by the 
regulations. When traveling around the country and officials 
say reporters are not allowed on their turf, we can now say, 
``Yes, we are, and here's the regulation.'' Sometimes it works. 
Sometimes they say, ``Oh, okay, we can't disturb you.'' 
Sometimes, if reporters threaten to call the Foreign Ministry 
to report local authorities are harassing them in violation of 
the rules, the locals will back down. Other times they say ``We 
don't care,'' or cite a local regulation restricting reporting, 
which usually they can't present on paper.
    We have surveyed our members over the years. A year ahead 
of the Olympics, so about half a year after the new rules had 
been implemented, about half of the respondents said that the 
reporting environment was improving. We sent out a survey this 
year, and the response was about the same. But obviously there 
is also a lot of dissatisfaction. We asked how many thought 
reporting conditions in China meet international standards, and 
something like 95 percent of respondents said they do not think 
China's reporting conditions are up to international standards.
    The Olympics appear to have been a catalyst for the Chinese 
Government to overhaul its approach to information control. 
Instead of restraining foreign correspondents as they did under 
the old rules, they now try to control our sources. The 
intimidation has shifted from stopping correspondents from 
conducting interviews, to stopping Chinese citizens from 
speaking to us. The end result is we are still not able to 
report freely.
    Harassment of interviewees is our top concern. Treatment of 
Chinese national news assistants who work for foreign 
organizations is also a big concern. Kathleen will fill you in 
on the details.
    Before I close, I would like to mention some positive 
changes that are worth noting but haven't received a lot of 
attention. Chinese authorities are becoming more proactive, for 
example, by holding more press conferences and media tours. 
Though too often these events are used to push soft stories, 
and reporters often do not feel they get adequate answers to 
their questions, still, this is a step in the right direction. 
It also suggests the Chinese Government believes it can achieve 
its goals more effectively by controlling or influencing the 
narrative, rather than by silence. Its practices are moving 
closer to those in other influential countries.
    The Olympics were also used to educate local officials 
nationwide on new principles of openness. I had access to an 
internal police circular for the Olympics with instructions for 
handling foreign 
correspondents. The police were told not to interfere when 
foreign correspondents interview religious groups, activists, 
environmental organizations, or other groups the government 
traditionally sought to silence.
    The directive, which I presume has expired with the 
Olympics, however, said if the interviewee was a Falun Gong 
practitioner, a Tibetan activist, a Uyghur or talking about 
Taiwan independence, the correspondent should be allowed to 
conduct the interview, but afterward the police should 
blacklist the journalist and deal with the interviewee in 
accordance with the law. Some news sources have been arrested 
and put in jail, following trials that included ``speaking to a 
foreign correspondent'' as evidence of wrongdoing.
     But I've also been pleasantly surprised to find awareness 
of the new policy of ``openness'' has reached some remote 
areas. Last month I was attending a wedding in a small town in 
the northeast corner of Inner Mongolia. I ran into a local 
court official at the celebration, who was happy to describe 
activities at his courthouse. I asked if I could do a video 
interview with him for a story I was working on about rural 
land disputes. He said, I could interview him since ``China has 
media freedom [Xinwen Ziyou],'' but I would need to ask his 
boss. His boss said I would need to apply to officials in the 
next town over. I didn't have time. Still I was surprised to 
hear him talk about media freedom, and he did let me film the 
inside of the courthouse. When I first arrived in China in 
2001, I don't think I would have heard the term, especially not 
from a low court official in a remote corner of the country. So 
I do think the message is seeping down to some people at lower 
levels in China. I think that is a very positive Olympic result 
that doesn't get highlighted a lot.
    With that, I'll turn it over to Kathleen, who will give you 
the details of what happens in the field.
    Mr. Grob. Thank you very much, Jocelyn. Kathleen? Please.

  STATEMENT OF KATHLEEN E. McLAUGHLIN, CHAIR, MEDIA FREEDOMS 
COMMITTEE AND SECRETARY, FOREIGN CORRESPONDENTS' CLUB OF CHINA; 
  CHINA CORRESPONDENT FOR BNA, INC.; AND FREELANCE JOURNALIST

    Ms. McLaughlin. Thank you. Thank you for inviting us here, 
and thank you for coming. We appreciate it.
    So, Jocelyn has kind of taken you through the history of 
where we've been as foreign correspondents in China, and now 
I'd like to give you some examples of what's been happening 
lately and give you some ideas of what we're concerned about 
into the future. In particular, I want to make clear that we 
believe Chinese assistants and Chinese sources are coming under 
increasing pressure, which is a real roadblock to free and open 
reporting.
    I also want to speak about the importance of free media for 
global economic issues and how China's information controls 
make it difficult for foreign correspondents to cover 
everything, including the economy.
    So let me start with a little story about something that 
happened a couple of months ago, and this might give you an 
idea of the new kind of interference and pressure we're facing 
as journalists.
    On June 3 and 4, Beijing's Tiananmen Square was filled with 
hundreds of people. Walking onto the square, it appeared that 
80 to 90 percent of the people were actually plainclothes 
police and army. Nearly all of them carried umbrellas, and at 
first glance it seemed the umbrellas were to block the hot sun 
overhead. As the hours wore on and foreign journalists appeared 
on the square to report about the 20th anniversary of the 
crushing of the Tiananmen movement, it became clear that the 
hundreds of umbrellas were there to serve a dual purpose: they 
were used to physically block journalists and cameras from 
filming on the square.
    So while from a distance it appeared the square was full of 
tourists with umbrellas, in fact, it was clear that something 
else was going on. We didn't have any reports of journalists 
being detained or arrested on the square that day, but we had a 
lot of calls from people who had their pictures ruined by 
plainclothes police with kind of pretty little parasols.
    I think this is a good example of this sort of soft 
harassment we've begun to see more of in recent months. It's 
less dangerous and less direct than what we saw in the past, 
but it's no less effective in preventing us from doing our 
jobs.
    Now, as Jocelyn mentioned, the Foreign Correspondents' Club 
is in the midst of a new members' survey, and the results we're 
getting are telling. Now, keep in mind we're not a polling firm 
so these aren't scientific results, but they give us an idea of 
the issues that are important to individual members.
    As Jocelyn said, about half of the members who've taken the 
survey so far do believe the reporting climate in China is 
improving and it's heading in the right direction, and that's 
consistent with what we've heard from the beginning.
    Still, many are concerned about current issues. About two-
thirds of the correspondents have had some kind of interference 
in doing their daily work, and more than two-thirds who work 
with a Chinese research assistant say their employee has been 
hassled or summoned for questioning by authorities in the last 
year. We've also had several reports of sources facing 
repercussions after talking to foreign journalists.
    Now, with that, to give you an idea of how things might be 
changing, let's go back to Tibet in March 2008. In the days 
following the Lhasa riots, foreign correspondents were shut out 
of Tibet. It's always been difficult for us to report in that 
region given that entrance to Tibet requires a special permit. 
All foreigners are required to get that permit, but journalists 
are scrutinized pretty closely and often denied. Last spring 
after the riots, foreign correspondents were not only shut out 
of Tibet, but repeatedly detained, harassed, and sometimes 
forcibly prevented from doing their jobs across the Tibetan 
plateau. The FCCC took more than 40 cases in which 
correspondents were prevented from working.
    Outside of Tibet proper, the area that technically doesn't 
require the special permit, foreign news crews were blocked and 
Chinese staff intimidated, and in at least one case a driver 
was threatened with arrest. So you can see it's not just 
foreign correspondents being harassed, but also the Chinese 
nationals involved in our work. And these are the people for 
whom this kind of interference could have life-altering 
consequences. So soft harassment, for example, where a police 
officer inserts himself into an interview, making it clear 
there may be consequences for the interviewee, has become 
fairly routine.
    In July 2008, I was the first American journalist allowed 
to travel independently to Lhasa. I was allowed to move 
relatively freely throughout the city. If anyone was following 
or listening to me I didn't see them, but the city was so full 
of police and military, the main obstacle I had is that most 
residents, both Tibetan and Chinese, were simply too afraid to 
talk to me. Access to Tibet and the region remains a problem to 
this day for foreign correspondents.
    Now, let's jump ahead to more than a year later, when we 
faced something similar with the uprising in Xinjiang on July 
5. As you know, nearly 200 people were killed when Uyghur 
protests in the capital, Urumqi, turned violent.
    What we saw in the days after marked a dramatic departure 
from the government's closed-door policy toward foreign 
journalists in Tibet. Journalists were immediately allowed into 
Urumqi, and by most accounts they were given freedom to 
interview and move about. There were some logistical problems 
with the Internet and telephone access, but the general climate 
marked a significant change.
    We'd like to hope that the government recognized the value 
of allowing foreign correspondents to report on the ground and 
to see things with their own eyes. Covering Xinjiang, however, 
was not without problems. Urumqi was relatively open, but the 
far western city of Kashgar was, by all accounts, completely 
closed. Officials denied the closure, but we've heard from 
several journalists who traveled there that they were 
intercepted and ordered to leave.
    Also, 2,000 miles away in Shaoguan, the site of the toy 
factory murders that sparked the Xinjiang riots, one local 
driver of a foreign reporting crew was called in for police 
questioning after the reporters left town. So, you can see 
there was a spread on that issue, very different things 
happening in Kashgar and Shaoguan than happened in Urumqi, 
which was quite open. After covering and writing about 
Xinjiang, two correspondents received anonymous death threats.
    Now, given the shift and the fact that foreign journalists 
were allowed to report rather openly in Urumqi, we do see a 
real potential for change, but there are still these trouble 
spots and continued problems. As the Chinese rules have more 
aligned with international reporting standards, harassment and 
intimidation may be going underground. By that, I mean the 
pressure is falling more often on vulnerable Chinese sources 
and staff.
    Now, in recent months we have encountered a new couple of 
trouble areas. At the beginning of the year, registered Chinese 
staff of foreign news bureaus in Beijing were called in for 
formal meetings and training, and potentially were lectured by 
officials, who threatened them with revocation of their 
accreditation, possibly losing their jobs. The new rules that 
were issued at that time urged the news assistants to promote 
positive news stories about China within their organizations. 
Additionally, they were instructed that it was illegal for them 
to conduct independent reporting activities.
    The Foreign Correspondents' Club believes that this new 
code of conduct discriminates against Chinese news assistants. 
Foreign companies in other industries can freely hire PRC 
citizens as full-fledged employees. In addition, the code is a 
business restriction that places foreign media at a competitive 
disadvantage. Chinese journalists in most developed nations can 
hire local staff without these kinds of restrictions. In China, 
foreign media are obliged to hire staff through the 
government's Personnel Services Corporation, which then directs 
their activities and holds regular meetings with the 
assistants, I believe, to talk about how they conduct their 
business.
    Now, another troubling development comes in the financial 
news sector. There is an area of tension that may stem from 
foreign financial news services competition with China's home-
grown financial news wires. While political news is generally 
considered more sensitive, financial news is coming under 
greater scrutiny. Most financial indicators are widely 
circulated before being officially released.
    In the past, the leaked figures would often find their way 
into Chinese and foreign media, but foreign media organizations 
have now come under pressure, including an implicit threat to 
be investigated under the state secrets law, for publishing 
data that hasn't been officially released.
    The tightening of these restrictions dates from the fall of 
last year and the global financial crisis. At that point, 
Chinese economists were urged to conform to the mainstream view 
on the economy and speak less to the media. Controls over 
publishing-leaked information were also tightened. This is a 
situation we're watching closely because we're not quite sure 
what direction it's headed in, but there is definitely an 
increased pressure on foreign financial news wires operating in 
China.
    I will conclude my remarks now. So as you can see, we have 
made a lot of gains in recent years and we still face some 
critical issues, namely, trying to maintain the safety of 
Chinese sources and staff while doing our job, and also 
pressure over information that might present competition to 
Chinese media, as well as the ongoing interference and 
harassment of the kind we've seen for a number of years.
    Thanks. I look forward to your discussion.
    Mr. Grob. Thank you very much, Kathleen.
    I'd like now to turn the floor over to Professor Esarey.
    [The prepared statement of Ms. McLaughlin appears in the 
appendix.]

  STATEMENT OF ASHLEY ESAREY, VISITING ASSISTANT PROFESSOR OF 
                   POLITICS, WHITMAN COLLEGE

    Mr. Esarey. Thanks very much for inviting me. It's a great 
pleasure to be here. Doug, thanks for moderating this panel; 
Lawrence, thanks for making everything happen.
    My remarks are going to be directed toward Chinese 
journalism, which is the subject of my research. The first 
thing I think you should know is that Chinese governments have 
been controlling political information of a wide variety of 
sorts for at least 1,000 years. So we're not talking about a 
new phenomenon, we're talking about new ways to control 
information in China. The primary way that you can control 
information in this modern age is by controlling the mass 
media, by controlling the Internet, cell phone text messages, 
and so on.
    The Chinese Government now faces a dilemma. The Chinese 
Communist Party wants to modernize the country. It wants to 
develop. In order to do so it has to allow some freedom of 
information. However, by allowing freedom of information it 
risks empowering critics; it risks giving activists a chance to 
use blogs to launch social movements. In short, the Party risks 
its unchallenged hegemony on political power. That's what is at 
stake.
    We also know, based on social science scholarship, that if 
you allow media openness, it is likely to empower social 
organizations, whether they are legal or illegal, and it's 
often conducive to democratization. These are both things the 
Communist Party is fighting very hard to stop.
    A little bit of history: At the founding of the People's 
Republic on October 1, 1949, the Chinese Communist Party made a 
marked departure from all other Chinese governments in the past 
in that it sought to control all political information in its 
society. It sought a totalitarian model in which the Party 
controlled the education system. Media organizations were 
controlled. The Communist Party nationalized all foreign and 
privately owned media; all so-called imperialist and 
antirevolutionary/counterrevolutionary literature was seized by 
the police and the postal service--what a scholar named Peter 
Kenez has called the propaganda state was largely established 
by about 1956.
    There have been some exceptions in terms of the ways in 
which information and the media have been controlled. The 100 
Flowers Campaign and the Cultural Revolution are two 
exceptions, but by and large the Party's ability to dominate 
the media and political information have allowed it to get the 
public to support its plan to radically change the Chinese into 
a Socialist society.
    Now, fast-forward to the death of Mao in 1976. Reformers, 
led by Deng Xiaoping, were able to emerge and they were very 
concerned about the media because, during the Cultural 
Revolution, a very tumultuous period, media had been shut down; 
the Party lost control of media, and media had become boring. 
Deng and others believed that media could be commercialized and 
propaganda could be repackaged to make it more attractive; 
ultimately, the media commercialized sufficiently so that they 
could be largely self-supporting. As the Party media 
commercialized, its incentives began to change.
    Commercialization of the Chinese press has led to a couple 
of noteworthy developments. Although when we consider 
liberalization in the Chinese media over the last 30 years, 
we're not going to be talking about journalists challenging 
President Hu Jintao about his policies or the nation's policies 
toward Xinjiang. That sort of thing does not occur in the 
Chinese press. Chinese leaders are never criticized by name. 
With commercialization, however, media now care about the 
public and they want to please consumers. That means that while 
they must serve the Party and state organizations that control 
them, they're also interested in investigative journalism when 
they can make it happen. There have been interesting examples 
of that. I'll just cite a couple.
    One was reporting in 2003 about the murder of a graphic 
artist, Sun Zhigang, in a detention center in Guangzhou. This 
then led to a major change in national policy vis-a-vis migrant 
workers. In 2007, there was a story done by Hunan Dianshi, 
Hunan television, that led to the release of people being held 
in slavery, as many as 600 people who were held in slavery in 
brick kilns in Shanxi Province.
    The most interesting example of media freedom, if you will, 
in China, occurred after the Sichuan earthquake last May, when 
the Communist Party Propaganda Department that guides media 
content ordered media--local media, provincial media, municipal 
media all around the country--not to go to the disaster area 
and report on location. These orders were widely defied and 
media went and reported on this very important news. That, I 
think, many scholars saw as a breakthrough, because it was the 
first time that we had seen widespread noncompliance with bans 
for politically sensitive media coverage since, perhaps, the 
Tiananmen demonstrations in 1989.
    Windows of freedom have opened for Chinese media, but they 
do not last long. They're often closed by the Communist Party's 
Propaganda Department, when it's able to do so, or when the 
government is able to portray its efforts as having effectively 
dealt with the problem.
    What about the Internet? How is that affecting things now? 
Well, the Internet, as many of you know--I see there are a lot 
of younger people here today--has lots of applications and 
China is following the United States and other advanced 
countries very rapidly in terms of its adoption of all sorts of 
applications for using the Internet. Blogs are extremely 
popular. There are 300 million Chinese Internet users. This is 
an old statistic. It's a statistic from January of this year. I 
say ``old'' because the number of Internet users increases so 
rapidly that statistics are quickly out of date.
    China has 300 million Internet users and 160 million 
bloggers. That is a tremendous amount of bloggers. And these 
bloggers are writing in ways that are totally different from 
the mass media. They advocate democracy and political reform, 
freedom of speech, and all sorts of other concepts that you 
just can't see in the mass media. We've got good quantitative 
data to demonstrate this.
    These new media have been used by members of the middle 
class in cities like Shanghai and Xiamen to organize protests. 
Often cell phones are used to circulate messages very rapidly. 
There are 650 million cell phone users in China. That is, 
again, a statistic from December of last year.
    So, Chinese use cell phones to access the Internet, 
messages are circulated, and demonstrations can be organized. 
The Chinese Government has maintained that ethno-nationalists 
in Tibet, and certainly Xinjiang, have used this new media to a 
very deadly effect. That has been the sort of critique of new 
media power that we have seen by the central government 
mouthpiece, Xinhua News Service.
    My argument at the outset was that the Chinese Communist 
Party has a dilemma, and the dilemma is: it must allow 
information freedom if it wants to develop, yet if it allows 
information 
freedom it risks losing power. I think the sorts of measures 
that Kathleen was talking about--new ways to keep foreign 
journalists from being very active, new ways of harassing 
assistants who work for foreign journalists--these measures 
indicate that the old measures for information control aren't 
working; they show us that the state believes that new measures 
are necessary.
    For the Internet, one of these new measures has been the 
Green Dam software that the government tried to get installed 
on all personal computers sold inside China. There was push-
back from the U.S. Government and, more quietly, from the 
business community, but the largest push-back, at least public 
push-back, came from Chinese Internet users themselves who felt 
that this software represented an invasion of privacy, and the 
government did suspend its attempt to impose this software on 
all machines sold in China.
    In China, we are seeing what David Shambaugh has argued is 
a daily battle waged between state and society over what is fit 
to know. Commercialization has changed the incentives of the 
media. They must now please consumers to survive. Media that 
were once the mouthpieces of Mao Zedong's government now 
perform their propaganda role unwillingly. Commercial media 
would like to compete with blogs and social networking sites 
for the attention of the public, however, party restrictions 
bar the media from doing this and sometimes this leaves 
journalists as uncomfortable as a cat in a bag.
    Ultimately, tight control over media content, in the 
context of Internet freedom, contributes to disbelief, even 
cynicism, toward state propaganda. The Chinese Communist Party 
may control the messages in media reports, but this no longer 
means the public believes the message.
    Thank you.
    [The prepared statement of Mr. Esarey appears in the 
appendix.]
    Mr. Grob. Thank you, Ashley, for your remarks. I'd like to 
thank all of our panelists for some very illuminating and 
stimulating comments.
    I'd like now to open the floor to questions from the 
audience. If you have a question, please, if you would, raise 
your hand, wait to be recognized, and wait a moment for the 
microphone to come to you, or feel free to come to the 
microphone.
    I'll repeat that we are creating a transcript of this 
event, which will be posted on our Web site, so, for that 
reason, I'd like to ask that, if you do have a question, to 
identify yourself. If you do not wish to identify yourself and 
wish to be identified in the transcript only as ``audience 
participant,'' that's fine. Just indicate that you do not wish 
to identify yourself and we will respect that desire.
    With that, questions, please? Yes, sir.
    Mr. Wides. Thank you. I'm Burt Wides. Until January, I was, 
for many years, a congressional staffer. Now I'm a private 
citizen. A question basically for Kathleen and Jocelyn. You've 
talked about a lot of modernizing. I've seen a lot of articles 
about protests about houses being seized, democracy protesters, 
lawyers. But the big lacuna is stories about Falun Gong in the 
U.S. media.
    Jocelyn mentioned that interviewers of the Falun Gong were 
blacklisted or the interviewees were arrested. Well, we know 
that many Falun Gong gravely risk both arrest and torture to 
protest, so the fault must be on the U.S. media side. When 
there are occasional stories, they seem compelled to give equal 
time or treat equally the Chinese propaganda, which is contrary 
to what the United Nations, the United States, all the human 
rights groups have said.
    So my question is: why isn't U.S. headquarters, the bureau, 
the individual journalist, concerned? Does blacklisting mean 
they would be kicked out of the country? What is the reason for 
that, in your view, and what can be done about it?
    Mr. Grob. Thank you.
    Ms. McLaughlin. I can't speak from personal experience on 
that because I haven't covered Falun Gong myself. I also don't 
know of any reporters who have been thrown out of China for 
writing about it. There certainly is pressure on it. I have 
heard of cases of journalists being called in by the Foreign 
Ministry after writing about Falun Gong, but I can't really 
answer why these reporters would approach the story the way 
they do. I think it's an individual basis and it's probably 
their own news judgment. Jocelyn may have more personal 
experience with it, so I'll turn it over to you.
    Ms. Ford. I have not covered any stories directly. I have 
discussed this with some journalist colleagues, and all I can 
say is that I think there are a lot of editorial-room decisions 
or individual decisions by journalists. In the past there have 
been journalists who were evicted from China. I believe the 
most recent case, though, was around 1999. Since I arrived in 
China in 2001, I am not aware of any journalists who have been 
kicked out.
    However, the government does put pressure on media groups 
by withholding or delaying visas. Of course, this can be 
difficult to pin down. But I am aware of journalists who were 
told by the Foreign Ministry their visa was being delayed 
because the Chinese Government was unhappy someone in their 
organization had interviewed the Dalai Lama or then-president 
of Taiwan Chen Shui-Bian. I don't think this is a new form of 
pressure.
    Mr. Wides. Do you think print or TV organizations have 
reached agreements with Beijing----
    Ms. Ford. I don't think so, personally. I have seen no 
evidence of that.
    Mr. Grob. Okay.
    Ms. Ford. As some of you may know, petitioning is quite 
common. In China, if somebody has a grievance, and the Chinese 
court does not solve it for them, often they will call 
journalists and petition or harass the journalist, expecting 
the journalist to help 
deliver justice. People who behave in this way often do not get 
coverage. This is based on conversations with other 
journalists. I have not received this kind of harassment 
myself.
    Mr. Guerra. Good afternoon. Thank you for convening this 
event. My name is Robert Guerra. I'm the project director at 
Freedom House's Internet Freedom Project, and for the last, 
about, year and a half we've been covering the issues of 
Internet freedom, and to do a report on China, have been 
following very closely both the issues related to the Internet 
in China, but also trying to find ways to get first-hand 
reports of what Internet policy is like in China and trying to 
have people there participate more effectively. It's good to 
hear that bloggers and the use of the Internet are increasing. 
Recent conversations and dialogues with people in China really 
show that that's really a medium that's really being used to 
bypass a lot of the blockages, both technological, to get news 
across.
    I have, kind of, probably two parts of questions. There 
seem to be organizations that cover traditional media, but I'm 
curious if there's anything that includes kind of the new media 
and if there is anything that bloggers' organizations or news 
organizations are trying to maybe help their Chinese blogging 
colleagues somehow, because just as it said that bloggers might 
present a new window, there are reports over the last week or 
so that a lot of the bloggers and other Internet activists who 
were involved in the Green Dam push-back are now being visited, 
are maybe having computers seized, and whether that's a result 
of that or other repression that's been taking place over the 
last two weeks with other lawyers being arrested, kind of gets 
me to the question, well, what can be done and how can the 
traditional media maybe work with this newer media, given that 
in Chinese it's the space that there is a window of possible 
openness, but also, as some other colleagues say, that if there 
are things that develop in China to control it, that might then 
move itself to other parts of the world. So, China might set a 
standard or might set--so I'm just curious what your thoughts 
are. I would have thought to hear a little bit more about the 
Internet, but then again, I follow it closely, so that's maybe 
more of a passion. So I'm curious. And again, thank you for 
convening this event.
    Mr. Grob. Thank you.
    Any takers?
    Mr. Esarey. Sure. I'm a scholar, so when you ask, are there 

organizations, the first thing that comes to mind are scholarly 
organizations. This may be of little help to you, but there's 
an organization called the Conference for Internet Research in 
China and they have annual conferences and they follow Internet 
developments very quickly, pretty well, and they have some 
things. But you're looking for organizations of bloggers in 
China. They have begun working together both inside and outside 
China. The blog is a distinctive personal medium and it's one 
that allows a lot of inter-linkages to other blogs and other 
Web sites that a blogger wants to affiliate him or herself 
with.
    So you do sort of see these organic communities emerging. 
For example, there's a blogger named Ai Weiwei, who has been 
trying to document the number of children who died in Sichuan 
as a result of faulty construction of schools. He has 
encountered all sorts of difficulties from the government. His 
blog postings have been erased, his blogs have been shut down, 
he's been harassed, he's monitored, his volunteers are 
harassed. So, you do have that sort of a thing, but other 
bloggers follow his activities and say, wow, that's 
interesting, and sometimes link to his blog and give his 
blogging significance through the larger inter-linkages on the 
Internet.
    But the main difference between a blogger and, say, a 
journalist in China is that journalists are dependent upon 
their activities to pay the rent, pay their mortgages, send 
their children to school. They can be fired if they don't do 
what their bosses or the Communist Party Propaganda Department 
wants them to do. Bloggers aren't like that. They don't depend 
on their blogs for any source of personal income, so they have 
a lot more freedom.
    They don't get instructions from the Propaganda Department 
about what they can say and what they can't say. They may look 
online to see what other bloggers are writing by doing some 
searches, but they are much more free. They're just 
qualitatively vastly freer in the way that they express 
themselves. And they privately own their medium. So there may 
be a way to work with bloggers or to help them, but it's 
unclear how international organizations could maybe work with 
bloggers in ways that don't lead them to receive more scrutiny 
and more harassment and result in the more rapid shut down of 
their sites.
    Mr. Grob. Jocelyn?
    Ms. Ford. I'll just add to that. Are you familiar with 
[deleted]? Okay. So he has an annual blogging conference that 
you're probably familiar with.
    Mr. Guerra. That's the one to which I was referring.
    Ms. Ford. Okay.
    Mr. Guerra. Unless you mean the one in China that he's held 
at Hangzhou and other places in the past.
    Ms. Ford. Yes. Yes. That's the same.
    Mr. Guerra. I think he's one of many sponsors.
    Ms. Ford. Right. He's one of the organizers of that.
    Ms. McLaughlin. From the foreign media perspective, I can 
tell you that the Chinese Government Ministry of Foreign 
Affairs has not yet approved any journalist accreditations for 
online media, and I know there have been some applications. So 
it's a new world for them from that aspect as well. No one has 
told me the reason on the record for that, but I'll just tell 
you that they're not accrediting any online-only media at this 
point.
    Mr. Grob. Yes, sir?
    Mr. Gibson. Jeff Gibson, Georgetown University. I have two 
questions for our distinguished practitioners and scholars, one 
political, one demographic. The demographic. You all mentioned 
that China has more than 300 million-plus Internet users and 
close to 700 million cellular phone users, our panelists told 
us. Looking 10, 20 years down the line, what do you think the 
implications of that connectivity, that's more than three times 
the U.S. population, is?
    There was an interesting article in, I think it was Global 
Times a couple of months ago called ``The Alternative Cyber-
Universe,'' and it talked about how Tudou and other Chinese 
Internet sites may not even be known by the majority of 
Americans, but have more users than like a Facebook or a 
Twitter. So that's my demographic question.
    The political one is: have you all seen an increasing 
sophistication in state media messaging? I'm curious, looking 
back at the Sichuan earthquake, last winter's cold snap, the 
Tibetan riots, and most recently the Xinjiang riots. Thank you.
    Mr. Grob. Thank you.
    Ms. Ford. Sophistication? Absolutely. Ogilvy and Xinhua 
have opened an education program to help teach the government 
how to spin in a more sophisticated way. When I worked for 
China state radio in 2001, the policy was to promote ``happy'' 
news, or positive feel-good stories. These would account for at 
least 80 percent of the stories. I think we've seen a shift in 
that. I believe the government propaganda strategists think if 
they allow enough negative news through, the positive news will 
enjoy greater credibility. That's my own interpretation. I have 
not confirmed this with policymakers.
    I think China's news business is becoming increasingly 
sophisticated in this way. I don't know if any of you are 
familiar with the new English-language publication, the Global 
Times, which is published under the People's Daily umbrella. 
They are moving much closer toward Western-style journalism 
than the China Daily, the English-language daily based in 
Beijing. The editors say their goal is to be a watchdog, to the 
extent possible. I've been impressed that they seek to provide 
balance and to fill in the holes in news stories. They will 
report when officials decline to reply. They are reporting more 
diverse views, and views that oppose some government policies. 
Some stories, however, do not meet the same standards, and may 
serve propaganda purposes.
    Mr. Esarey. Yes. I'd just like to say something in regard 
to Mr. Gibson's first question about demographics, which I 
think is really a political question: how are the demographics 
that we're seeing now in terms of Internet use and cell phone 
use going to play out down the line when the trajectory of 
usership continues to climb? In maybe 5 or 10 years, almost 
every Chinese will have a cell phone. Instead of 20 percent of 
the population being online, we'll see 40 percent, or 50 
percent, or 60 percent. How is that going to change things? 
Nobody has good answers to this question.
    I think I would make two observations, because no one can 
predict the future, right? At least not very reliably most of 
the time. My observations are that if you've got a lot of 
freedom on the Internet, despite blockages on sites and 
harassment of bloggers and so forth, bloggers are still very 
free, compared to a tightly controlled traditional media--
newspapers, magazines, television stations, and so forth. 
People are going to tune out official media sources. They're 
going to tune them out and they're going to go to the Internet 
for what they consider to be the unvarnished truth, or at the 
very least, for information that's unmediated by the state.
    If the traditional media does not respond by liberalizing 
its content, it's going to lose market share. Believe me, they 
don't want that. So I think you'll see more push-back from 
journalists who want to report the kind of news Chinese 
consumers would like to see.
    Mr. Grob. Let me jump in and ask a point of clarification, 
drawing on Jocelyn's point about liberalization on the one 
hand, and sophisticated creation of the illusion of 
liberalization, on the other. Do you have any thoughts on what 
might trigger one versus the other?
    Mr. Esarey. Oh, I think the regime has been trying to 
create sophisticated illusions of freedom for a long time, 
really since the founding of the country. Making media 
interesting has been a priority since the early 1950s. It has 
just been very difficult to achieve with party committees 
controlling all the media. But some Chinese journalists have 
said the investigative journalism that we're seeing is really 
like opium. One Chinese journalist used this expression, ``it's 
opium,'' because investigative journalism makes people believe 
that there is freedom, when in fact there isn't very much in 
the media today.
    Mr. Grob. Yes, sir? Just as a reminder, since time is 
running short, if I could ask you to keep your questions to one 
question, and to make sure it is a question and not a comment. 
Thank you.
    Mr. Ausbuck. My name is Dave Ausbuck. I don't know if this 
is related, but I thought it was, so I'd ask it. Next year, the 
Chinese are hosting a major World's Fair exhibition in 
Shanghai. The theme is ``Better Cities, Better Life.'' So I 
guess the question I have for you is, have you detected any 
sense of they're going to allow--if you know what a World's 
Fair is, it's all the countries, and even the nongovernmental 
organizations, even religions, come by and have pavilions and 
are free to put out their own content. This seems to me the 
first time I've ever heard about a World's Fair being hosted in 
a non-democratic, authoritarian country.
    The question I have: do you know of any plans to censor? 
Most exhibits there are in the form of videos about these 
countries. They're celebrating cities which are traditionally 
known for more freedom of expression and diversity and 
tolerance.
    So do you know of any plans to censor the exhibits there 
and the expression there at the expo that you know of, or have 
you detected any sense that they will be more tolerant of 
freedom of expression there at the World's Fair next year?
    Mr. Grob. Thank you. That's an excellent question. Maybe, 
Kathleen? Thank you.
    Ms. McLaughlin. I don't have a great answer for you because 
I haven't heard about any--it's a great question. It wouldn't 
surprise me if there were some censorship because there was 
during the Olympics last year, as you know. Messages about 
Tibet, Tibetan flags, things of that nature were barred from 
the Olympics, so it wouldn't surprise me if the same sort of 
thing happened. But I haven't heard of it as yet. So, something 
to watch out for.
    Mr. Liu. Let me just ask as a followup to that question, 
because you raised this very interesting notion of the 
significance or the distinction in media coverage in cities 
versus in less urban areas and the notion that a city is--in 
some sense it's of necessity, in some sense by design--more 
diverse, more tolerant.
    To what extent have our practitioners seen any noticeable 
or detectable difference along the urban-rural divide in the 
coverage of stories in China or how the media operate, or the 
rules that apply, or the Party and the government's approach 
toward journalists along spatial lines, specifically urban and 
rural?
    Ms. McLaughlin. I can just speak from my own experience on 
that. It is oftentimes easier to report in rural areas because 
people tend to be economically less well off and therefore have 
less to lose, so they will be more honest with you. However, 
the flip-side is, local officials and local governments tend to 
be more restrictive, maybe not as aware of the new regulations, 
so there's a little bit of a dichotomy there. People would be 
more open, but at the same time local officials might be more 
closed. That's just my own personal experience.
    Ms. Ford. My experience in talking with Chinese colleagues 
is that, yes, it's much easier to push the envelope in urban 
areas than in rural areas. Maybe some of you have lived in 
China. I often feel like I'm time traveling when I leave 
Beijing and get off the beaten track. I feel like I am going 
back 5 or 10 years. The government mentality often, as Kathleen 
said, is from a different era. But recently I've become more 
optimistic. I mentioned the example from Inner Mongolia. I was 
very surprised that, in a tiny town, a local court official was 
parroting something about media freedom. ``Wow! '' I thought, 
``This is progress.'' At least he knows the terminology. 
Thanks.
    Mr. Grob. Yes, ma'am?
    Ms. Earp. Madeleine Earp, Committee to Protect Journalists. 
My question for the panel is: What advice would you give, or do 
you give, to foreign journalists who are navigating this new 
environment of soft harassment that you mentioned? Should they 
continue to approach sources and news assistants if there's the 
potential for there to be retribution from officials afterward? 
Thank you.
    Ms. Ford. The question was for pressure on assistants 
specifically, or in general?
    Ms. Earp. Assistants and sources.
    Ms. Ford. Assistants and sources. Okay. It's very important 
that journalists understand the risks and are able to read the 
tea leaves because regulations and laws are spottily enforced. 
I feel strongly that reporters should not assume the source is 
aware of the various risks. Correspondents should evaluate the 
risk and make sure their sources are willing to shoulder them. 
Of course, journalists also may not be aware of the risks.
    I was fortunate to be able to hire an assistant who not 
only was extremely savvy about risks, but also had a relative 
who was in a position to help her out should we run into 
trouble. I felt more comfortable when I was going into risky 
territory because I didn't need to worry about her so much. But 
you can't always have that.
    I think it's very important that correspondents discuss the 
risks with assistants and evaluate what the assistants are 
willing to do. I want to be clear there are many stories that 
aren't sensitive.
    It is also important to discuss communications. I assume 
that all phone calls could be intercepted and listened to. It 
doesn't mean the authorities are listening to every phone call, 
but if I am calling a sensitive source I assume that the 
source's phone is being listened to and therefore I will be 
followed and watched after I have contact with that person. The 
FCCC actually has some guides online and we've printed wallet 
cards about what to do, how to protect yourself and how to 
protect your sources.
    A lot of people forget that managing communications 
carefully is extremely important. Sources have been arrested, 
detained, or questioned because of what was said on a 
telephone.
    Mr. Grob. Let me just ask a followup to some of the things 
you just said that also go back to the prior question. That is, 
displaying my own ignorance here, just to put China in 
perspective internationally, what do we know about other 
authoritarian states--do some have a less heavy-handed approach 
toward the media? Can we get some broader, either historical or 
global context here, and how do we place China along a spectrum 
in that regard?
    Ms. Ford. I'm sure the Committee to Protect Journalists is 
in a better position to address that, but let me take a stab. I 
often open talks by saying that though correspondents in China 
face many obstacles, it is a lot safer to report in China, for 
example, than, say, in the Philippines. Most foreign 
correspondents, I believe, assume the worst that will happen is 
they could get kicked out of the country. The greater danger, 
of course, is for our sources. But the reporters in China--
again, other people have the statistics--may be more likely to 
be jailed than in many countries. I think it's important to 
keep this in perspective.
    Having said that, though our lives are not as much at risk 
as journalists in other countries like the Philippines and 
Iraq, we all want you to pay attention to the issues we're 
concerned about.
    Mr. Grob. Yes?
    Ms. Vandenbrink. Rachel Vandenbrink, Radio Free Asia. Could 
you please perhaps explain why reporters haven't been able to 
get access to interview Uyghurs in order to get an accurate 
casualty count in the recent protests? Also, how did the 
blocking of Internet and phone access to Xinjiang affect the 
reporting environment for foreign reporters?
    Ms. McLaughlin. I can try and take that. You're talking 
about a casualty count in Urumqi, correct? I wasn't in Urumqi. 
I can't tell you who was or wasn't interviewed. I assume that, 
you know, just a random sort of Uyghur that you could interview 
on the street wouldn't be able to give you a verifiable, 
confirmed casualty number. So I think you're relying on 
official statistics there. That's my best guess.
    And what was your second question? I'm sorry.
    Ms. Vandenbrink. About the blocking of Internet access and 
telephone access.
    Ms. McLaughlin. Right. So Internet access was cut 
completely, is my understanding. Telephone access was very 
spotty. What the local government did for foreign journalists 
was set up a media center and gave them Internet access, so 
that's how they were able to access it there. A lot of people 
were filing via satellite phones, which I believe are not 
technically legal. Is that right?
    Ms. Ford. That's my understanding.
    Ms. McLaughlin. Right. But they were allowing the foreign 
journalists to use satellite phones, so there was a lot of that 
going on. I can tell you my own experience reporting in 
Shaoguan, the toy factory murder site. It wasn't possible to 
interview Uyghurs because they were completely restricted from 
access. We couldn't talk to them. The interview requests were 
denied. They were not out walking on the streets. We couldn't 
ask them how many people were killed in the toy factory because 
they just weren't there. I think the situation is a lot 
different in Urumqi proper because it would be difficult to get 
one single person who could give you a verified casualty count.
    Mr. Grob. Jocelyn?
    Ms. Ford. Perhaps a clarification. I think international 
phone calls were blocked, but local----
    Ms. McLaughlin. Local phone calls were spotty.
    Ms. Ford. Okay. Spotty. But international--some people were 
sending the message off to somebody else who did have Internet 
connection and would post something online. So, there was sort 
of a relay.
    Mr. Liu. I just want to follow up with another question 
about the role that the U.S. Government may, or may not be able 
to play in terms of supporting the ability of foreign 
journalists in China to report freely. When there have been 
restrictions in the past, the U.S. Government has at times made 
statements in support of allowing journalists unfettered access 
to certain areas that had been closed off. Have you found those 
statements to be at all helpful? If you have any suggestions as 
far as what role the U.S. Government can play, that would be 
helpful, bearing in mind that we also, I imagine, do not want 
to be seen as interfering as well in terms of the sort of 
separation between the state and the press. Yes?
    Ms. Ford. Thank you for that question. I'm sorry. I have 
been on vacation so I haven't been paying so much attention to 
the news. But I regard the open comment period on the state 
secret regulation as a very positive move. I don't know if the 
U.S. Government made a comment. But I think encouraging open 
comments on regulations regarding media and then actually 
participating in the process and encouraging an opening up of 
the process is very positive.
    China ratified the U.N. Covenant on Civil and Political 
Rights but did not pass it. I just want to say, if there's one 
thing you walk out of here with, it's this: as long as Chinese 
citizens are not free to talk to foreign correspondents, we are 
not free to report.
    So I think the issue really is, how can we encourage a 
situation where Chinese citizens are free to speak to us 
without retribution. Ratification--again, not everything is 
implemented perfectly, but ratification--encouraging 
ratification of international agreements, I think, is a 
positive step. At least it gives us more to fight with.
    When I created the wallet card outlining legal rights of 
foreign correspondents in China, I sought advice from a number 
of lawyers. We're not always aware of changing laws, and we 
don't try to use them. To the best of my knowledge no foreign 
correspondent has ever sought to sue government authorities for 
rights violations, or for compensation for injuries suffered at 
the hands of authorities who tried to stop legal reporting 
activities. Regardless of whether the journalist is likely to 
win such a case, a lawsuit would generate a headline, and draw 
attention to illegal actions on the part of authorities.
    I do think the U.S. Government could engage in more 
dialogue with China on how to balance national security 
interests and freedom of information. The FCCC is seeking to 
promote a gold standard for international reporting conditions. 
All we can do is express our views and hope that the Chinese 
Government takes them into consideration and looks for the best 
international practices.
    So, I think any sort of exchange on these issues, 
especially protection of sources, would be worthwhile. About 
130 countries around the world have some sort of protection, 
legal or otherwise, for news sources. You cannot have a free 
media without protection of sources. So, I think encouraging 
this kind of dialogue with China would be useful. Any 
activities that promote the view that the free flow of 
information can help solve social problems, such as unrest, 
would be worthwhile. It's important to reiterate the view that 
nations that respect and protect the free flow of information 
are more likely to enjoy wide international respect.
    Mr. Grob. On that note, if you had the ability to recommend 
a single coordinated message that Members of the Congress and 
administration officials could deliver regarding press freedom 
to Chinese officials, say, during visits to China, whether it 
be to officials at the central level or at the local level, 
what would be the one-sentence message that they could deliver 
that you think would be most important, most effective? And I'm 
talking about both in public and private conversations, that 
would be most important or most effective in terms of advancing 
press freedom and media freedom in China. Anybody?
    Ms. Ford. You're challenging. If I could do a one-sentence 
message I'd probably be working for a PR firm and be making a 
lot of money. I usually get 40 seconds on the radio, so can I 
do 40 seconds? In all seriousness, I think encouraging the idea 
that diversity of views, tolerance of different views, and 
discussion of different views is a way to solve problems. It is 
not what creates the problems.
    In China we often hear the argument that open discussion 
leads to social unrest, hence the controls. I think it would be 
useful to promote case studies from other countries where 
dialogue with an ethnic group that felt it was being unfairly 
treated helped reduce tensions. Does that help answer your 
question?
    Mr. Grob. Yes. Thank you.
    Ms. Ford. So I can get that PR job? This is on the record. 
I should be careful, huh?
    Mr. Esarey. I have a one-sentence comment. That is improve 
journalistic professionalism. I mean, by supporting the 
training of Chinese journalists and inviting them to come to 
the United States to work in the U.S. media organizations and 
learn about our values concerning the news and strategies for 
reporting the news; improving journalistic professionalism 
could also occur through better training for the U.S. 
journalists who go to China. This goes back to Madeleine Earp's 
question, which is, how do you avoid this reliance on 
assistants?
    Well, one way is to really bone up on your Chinese language 
ability to read and speak fluently enough to do a lot of your 
own 
reporting. I think probably half, if not more, of the foreign 
journalists working in China are not truly fluent in Chinese. 
That's something that could be improved with more training, 
more journalistic professionalism of a different sort, I 
suppose.
    Ms. Ford. May I comment? There is often a division of labor 

between assistants and foreign correspondents. I don't have an 
assistant now. When I worked with an assistant, we analyzed 
every situation and discussed whether an individual or 
organization was more likely to open up to a foreigner or more 
likely to open up to a Chinese national. The language issue is 
not the only consideration here. Sometimes, it is safer for the 
source to speak to a Chinese. Being seen with a foreigner would 
be more risky. Some 
Chinese feel more comfortable speaking to foreigners about 
sensitive issues. I agree training is important, but training 
should 
include how to deal with delicate situations, and how to make 
prudent decisions when there are no clear rules, because, of 
course, rule of law is not implemented to the degree that one 
would like.
    Ms. McLaughlin. While we are concerned about harassment of 
assistants, really the other core issue is harassment of 
sources. That is happening where the correspondent is 
completely fluent in Chinese. Maybe he's even ethnically 
Chinese. You have sources being harassed and suffering 
repercussions for talking to foreign journalists, and that just 
shouldn't happen.
    Ms. Ford. Sorry. May I add one more thing. In fact, foreign 
journalists of Chinese descent often face very different 
pressures from foreign journalists who look like me--and since 
the audio is being recorded: I don't look Asian. So I think 
that one needs to have a very broad understanding of how to get 
information safely and all the tactics go into the toolbox. 
Reporters need to be prudent in choosing a strategy. Of course, 
the ideal situation would be to have laws fully enforced and 
the new regulations for foreign journalists and the 
constitutional right to freedom of speech upheld. If this were 
to happen, I think a lot would be solved.
    Mr. Grob. Questions? Yes, sir.
    Mr. Martin. I'll try to speak up. Michael Martin from the 
Congressional Research Service. Ashley, earlier you mentioned 
about the cynicism of the public in China toward the state-run 
media. There is a growing non-state run media in China. Caijing 
magazine recently featured in the New Yorker, for example, is 
one source. Then, also, you have the Western media that is also 
operating inside China. There are some indications that 
cynicism is bleeding over to the private and to the Western 
media--for example, the anti-CNN Web page which is out there--
and critiquing Western coverage of events in China. I was 
wondering if the panelists would like to comment on cynicism 
and the view inside China toward media in general, and how much 
they discriminate against state-run, the domestic private, and 
then the Western media sources. Thank you.
    Mr. Grob. Wow. We have six minutes left and that could be 
another panel. But Ashley?
    Mr. Esarey. Sure. Michael, thanks very much for your 
question. Caijing is an excellent magazine. It's technically 
registered with a state organization, although it has 
shareholders and it operates like a private corporation. Its 
reporting is definitely fueled by the motivation to make a 
profit. But I think the keys to its success have been excellent 
political savvy, tremendous management, and paying journalists 
good salaries, as opposed to the more common practice of 
rewarding only the reporting that is politically acceptable.
    The anti-CNN situation is pretty complex. There is a lot of 
information available about the people who are involved in this 
movement, if you can call it that. Some of them have now 
rejected the movement and left it. There is definitely some 
dissension among the people who are involved.
    Does that reflect a sort of cynicism? I think anti-CNN is 
more related to the manifestation of nationalism on the Chinese 
Internet today. The anti-CNN thing was about Jack Cafferty, a 
commentator for CNN, who made a deprecating remark about the 
quality of Chinese leaders. The Chinese state actually kicked 
into gear its Party operators. They're called the 50-Cent 
Party, wumao dang. These people posted nationalistic comments 
attacking CNN on lots of Web portals, according to research by 
David Bandursky in Hong Kong. So I think the anti-CNN situation 
is complex.
    As far as the mainstream media goes, Party media will lose 
circulation unless it commercializes and caters to nationalist 
tastes. Often within media groups you have Party media that are 
broadcasting more propaganda and commercialized media that are 
trying to raise revenue through reports that please consumers 
in various ways.
    Ms. Ford. A quick question and a comment. I do believe the 
anti-Western media campaign has had a tremendous and long-
lasting effect. I often hear from Chinese now that foreign 
reports are not so credible. Before, Western media was the 
golden city on the hill and some Chinese thought they could 
believe everything that appeared in overseas media, which is 
probably not quite accurate either. It wasn't just one mistake 
that led to this distrust of Western media on certain issues.
     I think the message many Chinese took home was that the 
foreign media is against China. I don't think that was the 
reason most of the mistakes were made, but foreign media did 
little to explain or provide context.
    There should've been more reports analyzing why the 
mistakes were made. Having worked as a foreign correspondent 
and having fought against stereotypes held by my U.S.-based 
editors regarding countries I've reported from, I can say China 
is not the only country that suffers from inaccurate reporting. 
Yes, the media also needs a watchdog, or an ombudsman. Nobody 
is perfect in the world. Inaccurate reporting is not 
exclusively a China problem. There was also little mention at 
the time that reporting is likely to be more accurate if 
reporters have access to news sites, and sources are free to 
talk without intimidation or fear of reprisal. The accuracy of 
reporting would also be helped if China stopped manipulating 
its media for propaganda purposes.
    Mr. Grob. Thank you.
    Any more questions? [No response].
    Mr. Grob. Well, let me just put this question to our 
panelists. Members of Congress and administration officials 
travel to China. They interact with the Chinese media, they 
interact with the foreign media while they are in China. I know 
that some Members and administration officials--for instance, 
Speaker Pelosi, Secretary Clinton--have even engaged in Web 
chats and other sorts of online activities during trips to 
China. What advice would you give to a Member of Congress or an 
administration official who is about to head to China for even 
just a short trip? What's the most important thing that they 
would need to keep in mind, that they might not ordinarily know 
about, regarding how to interact with the media in China, and 
how to prepare for their encounters with the media in China?
    Ms. Ford. May I? I actually have an interesting anecdote 
about Speaker of the House Pelosi's visit. I received a call 
from a journalist in southern China who wanted to interview 
her. The journalist told me she thought she needed a connection 
to get the interview, and she thought I had connections at the 
embassy. I said, she could go talk to the embassy directly, 
that's the way America worked. Well, I don't know how true this 
is. But in America, at least the front door should be open so 
they should try a front-on approach. I think outreach by 
American Senators and Members of Congress to local journalists 
would be very well received.
    Again, recently the same person said she felt that there 
were fewer controls on what they could do as a local newspaper 
with international reporting. She really wanted to beef up her 
team and she was asking me how to do that. So, I think there 
are tremendous opportunities. I suggested she write an e-mail. 
By the time she sent the e-mail Pelosi's visit was almost over. 
She never got a response. So, I think if American delegations 
are open to all media, and not just the most famous outlets, 
they may find a lot of interest.
    Mr. Grob. Thank you very much.
    Kathleen, did you have something to add?
    Ms. McLaughlin. I guess my advice would just be to be open 
and honest and don't censor yourself when you're in China. I'm 
not accusing anyone of having done that, but I think it's 
helpful if people speak out about what they believe in when 
they're there.
    Mr. Grob. And for the last word, since it is 3:29 p.m.
    Mr. Esarey. I would just urge our elected representatives 
to recognize that their public remarks can very easily be 
misconstrued in a media that is subject to close scrutiny and 
tight political control. So try to be sure--I would urge them 
to try to be sure that the message they want to get across gets 
across and to actually read the Chinese press coverage that 
results from their visits, and complain if they feel like their 
remarks were not properly translated. Of course, the ideal 
scenario would be for our representatives to bring their own 
translators. That leaves a lot less room for things to kind of 
go sideways in terms of communication. But if they're trying to 
get information, I think the best way is informal interaction--
dinners, the fun stuff.
    Mr. Grob. Well, the fun stuff. On that note, we'll end this 
fun stuff. It's 3:30.
    I thank you all very much for attending our roundtable 
today. I thank our panelists for some outstanding insights, and 
some wonderful, illustrative anecdotes, and some real concrete 
recommendations and thought-provoking ideas to take with us 
going forward.
    I'd like to thank our Senior Counsel, Lawrence Liu, for 
putting this together, and our staff, for your logistical 
support.
    With that, the ninth CECC roundtable of the 111th Congress 
is adjourned. Thank you.
    [Whereupon, at 3:30 p.m. the roundtable was concluded.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


              Prepared Statement of Kathleen E. McLaughlin

                             july 31, 2009
    Good afternoon. Thanks for inviting us to talk about this important 
issue. Jocelyn has taken you through where we've been as foreign 
correspondents in China, and I'd like to take you forward with the 
issues we continue to face. In particular, I want to make clear that we 
believe Chinese assistants and sources are coming under increasing 
pressure, a real roadblock to free and open reporting.
    I also want to speak about the importance of free media for global 
economic issues and how China's information controls make it difficult 
for foreign correspondents to cover everything, including the economy.
              tiananmen 20th anniversary: the umbrella men
    On June 3 and 4 this year, Beijing's Tiananmen Square was filled 
with hundreds of people. Walking on to the square, it appeared that 80-
90 percent of them were plainclothes army and police. Nearly all 
carried umbrellas, at first glance, to block them from the hot sun 
overhead.
    As the hours wore on and foreign journalists appeared on the square 
to report about the 20th anniversary of the crushing of the Tiananmen 
democracy movement, it became clear that the hundreds of umbrellas 
served a dual purpose. They were used to physically block journalists 
and cameras from filming on the square. So, while from a distance, it 
appeared the square was full of tourists, up-close, it was clear that 
something else was going on.
    I think this is a good example of the kind of ``soft harassment'' 
we've begun to see more of in recent months. It's less dangerous and 
less direct than what we saw in the past, but no less effective in 
preventing foreign correspondents from doing our jobs.
                       continuing and new hurdles
    The Foreign Correspondents' Club of China is in the midst of a new 
member survey right now and the results we're getting are interesting. 
The results are not scientific, but give us an idea of what individual 
members face:
    About half of members who've taken the survey so far think the 
reporting climate in China is improving, which is consistent with when 
we first started asking this question. Still, many are concerned about 
pressing issues. About two-thirds of them have had some kind of 
official interference in their work over the past year. More than two-
thirds of those who work with a research assistant say their employee 
has been hassled or summoned for questioning by authorities. We've had 
several reports of sources facing repercussions.
                   problems in covering tibet in 2008
    To give you an idea of how things might be changing, let's go back 
to Tibet in March of 2008. In the days following the Lhasa riots, 
foreign correspondents were shut out of Tibet. It's always been 
difficult for us to report in that region, given that entrance to Tibet 
requires a special permit. All foreigners are required to get a permit. 
Journalists are scrutinized more closely and often denied.
    Last spring, foreign correspondents were repeatedly detained, 
harassed and sometimes forcibly prevented from doing their jobs across 
the Tibetan plateau. The FCCC logged more than 40 cases in which 
foreign correspondents were prevented from working. Outside of Tibet 
proper--the area that technically doesn't require special travel 
permits--foreign news crews were blocked and Chinese staff intimidated, 
and in at least one case, threatened with arrest.
    So you can see, it's not just foreign correspondents being 
harassed, but also the Chinese nationals involved in our work--people 
for whom police action can have life-altering consequences. We seem to 
be witnessing a trend toward harassing and intimidating these people 
more--blocking them from talking to us, warning them against helping 
us. Soft harassment, for example, where a police officer inserts 
himself into an interview, making it clear there may be consequences 
for the interviewee, has become fairly routine.
    In July of 2008, I was the first American journalist to travel 
independently to Lhasa, I was allowed to move freely throughout the 
city. If anyone was following or listening to me, I didn't see them. 
But the city was so full of police and military, the main obstacle I 
had is that most residents--both Tibetan and Chinese--were too afraid 
to talk to me.
    Access to Tibet and the region remains a problem to this day.
                      xinjiang riots and coverage
    More than a year later, we faced something similar with the 
uprising in Xinjiang on July 5. As you know, nearly 200 people were 
killed when Uighur protests in the capital Urumqi turned violent. What 
we saw in the days after marked a dramatic departure from the 
government's closed-door policy toward foreign journalists in Tibet.
    Journalists were immediately allowed into Urumqi, and by most 
accounts, given freedom to interview and move about. There were 
logistical problems, but the general climate marked a significant 
change.
    We'd like to hope the government recognized the value in allowing 
foreign correspondents to report on the ground.
    Covering Xinjiang was not without problems. While Urumqi was 
relatively open, the far western city of Kashgar was closed. Officials 
denied the closure, but we've heard from several journalists attempting 
to travel to there, who were intercepted and ordered to leave.
    Also, 2,000 miles away in Shaoguan, site of the toy factory murders 
that sparked the Xinjiang riots, the local driver of one foreign 
reporting crew was called in for police questioning after the reporters 
left town.
    Additionally, two correspondents received anonymous death threats 
after writing about the Xinjiang unrest.
    Given the shift and the fact that foreign journalists were allowed 
to report rather openly in Urumqi, we do see real potential for change. 
But there are trouble spots and continued problems.
    As the rules have more aligned with international reporting 
standards, harassment and intimidation may be ``going underground. `` 
The pressure seems more often directed at vulnerable Chinese sources 
and staff.
               emerging issues, pressure on chinese staff
    And in recent months, we've encountered a few new trouble areas:
    At the beginning of the year, registered Chinese staff of foreign 
news bureaus in Beijing were called in for official meetings and 
training. New rules were issued to the assistants about proper 
behavior, including urging them to ``promote positive stories about 
China'' within their organizations. They were instructed that it was 
illegal for them to conduct independent reporting.
    We believe this new code of conduct discriminates against Chinese 
news assistants. Foreign companies in other industries can freely hire 
PRC citizens as full-fledged employees. In addition, the code is a 
business restriction that places foreign media at a competitive 
disadvantage. Chinese journalists in most developed nations can hire 
local staff without such restrictions. In China, foreign media are 
obliged to hire staff through the government's Personnel Services 
Corporation.
                        financial news services
    Another troubling development is ongoing pressure on foreign 
financial news services--an area of tension that may stem from 
competition with China's homegrown financial news wires.
    While political news is generally considered more sensitive, 
financial news is coming under greater scrutiny. Most financial 
indicators are widely circulated before being officially released. In 
the past, leaked figures would often find their way into Chinese and 
foreign media. But foreign media organizations have come under 
pressure--including an implicit threat to investigate under the state 
secrets laws--for publishing data not yet officially released.
    The tightening of restrictions dates from the fall of 2008, and the 
global financial crisis. At that point, Chinese economists were urged 
to conform to the mainstream view on the economy and speak less to the 
media; controls over publishing leaked information were tightened.
                               conclusion
    So as you can see, while we've made significant gains, we still 
face critical issues: Namely Trying to maintain the safety of sources 
and Chinese staff, pressure over information that might present 
competition to Chinese media, and ongoing interference and harassment 
of the type we've seen for years.
    Thanks and I look forward to your questions.
                                 ______
                                 

                  Prepared Statement of Ashley Esarey

                             july 31, 2009
    I am delighted that the Congressional Executive Commission on China 
has organized a panel to discuss how the news is reported in China by 
Chinese and American journalists.
    China has a tradition of state censorship that goes back more than 
1000 years. The current political regime, led by the Chinese Communist 
Party, has controlled political information far more effectively than 
any government in the country's history. Yet Beijing's rulers face a 
dilemma. On the one hand, freedom of information is invaluable for 
making business decisions in the global economy, technological 
transfers, and scholarly exchange. On the other hand, media freedom has 
facilitated democracy movements in countries such as Mexico, Hungary, 
Taiwan, Indonesia, and Czechoslovakia. Media freedom is good for 
China's economy and public welfare but likely to weaken the CCP's 
political hegemony, as journalists expose policy failures and political 
activists use the Internet to organize demonstrations. The CCP controls 
Chinese media because its primary objective is to remain in power. In 
the last three decades, however, media commercialization, the growth of 
journalistic professionalism, cell phone use, and the Internet have 
made information control more difficult than ever.
                             mao-era media
    Since the founding of the People's Republic on October 1, 1949, the 
CCP has sought to dominate all forms of political communication. The 
Central Propaganda Department of the Communist Party guided policies 
that placed media under party leadership, nationalized privately owned 
media, and divested foreign newspapers of the right to publish in 
China. Police, customs agents, and postal workers confiscated 
``imperialist'' and ``counter-revolutionary'' literature.
    In the early 1950s, the People's Daily newspaper emerged as the 
mouthpiece of the Communist Party Central Committee and bellwether for 
the views of Mao Zedong and other national leaders. Xinhua News Service 
assumed a central role in disseminating carefully vetted reports around 
the country. Media at central, provincial, and municipal levels became 
``mouthpieces'' of the CCP. Working though the State Press and 
Publications Administration, the Central Propaganda Department 
orchestrated the closure of media that did not comply with party 
directives. By 1956, China had established what Peter Kenez has called 
a ``propaganda state,'' with the country's entire media industry and 
education system firmly under party control. Mao's media proved to be 
effective tools for mobilizing the public in support of China's 
socialist transformation. While the stability of China's propaganda 
system was punctuated by events, such as the Hundred Flowers Campaign 
(1956-57), and the chaos of the Cultural Revolution (1966-76), leaders 
with the upper hand in Chinese politics have tightly controlled media 
content and operations.
               media commercialization in the reform era
    The death of Mao made possible the ascent of reformers, led by Deng 
Xiaoping. Far from an advocate of media freedom, Deng supported 
measures to commercialize the media industry so as to make it 
profitable and more attractive to consumers. The goal of 
commercialization was to revitalize media's propaganda role by 
repackaging the news. Party and state institutions retained power over 
commercial media by controlling ownership, personnel appointments, and 
cracking down on media that failed comply with content directives 
issued by central and local branches of the Propaganda Department. The 
result was a media system that combined the characteristics of Soviet-
style media with Western media management strategies. My analysis of 
the newspaper content from 1980 to 2003 has shown that commercial 
media, in some cases, grew freer to criticize minor political problems, 
without jettisoning their propaganda role or challenging party leaders 
with substantial power to repress offending journalists.
    Media commercialization during the Reform Era (1978-present) 
changed the incentives for media, which recognized that freer, less 
doctrinaire reporting appeals to the public. When opportunities 
appeared, greater media freedom has emerged, although local, rather 
than central, officials are the targets of critical news reports. In 
colloquial parlance, Chinese media ``swat flies'' but do not ``hit 
tigers.'' Powerful political and economic interests can coerce or bribe 
media to abandon potentially embarrassing stories.
    Nevertheless, studies by Chinese communications scholars have 
documented a new ethos of professionalism among Chinese journalists. 
Strict adherence to the party line does not always trump the public's 
right to know about a natural disaster or the spread of a disease. 
Journalists who believe in their professional obligation to inform the 
public have found work in media, such as the Southern Metropolitan 
News, Southern Weekend, or Caijing Magazine. These media have 
encouraged reporters to push the limits of central government 
restrictions. Notable examples of investigative stories with a national 
impact have been reporting on the 2003 murder of graphic artist Sun 
Zhigang in a detention center for migrant workers, the 2007 exposure of 
slavery in brick kilns in Shanxi Province, and reports about the shoddy 
construction of school buildings that led to the deaths of thousands of 
children during the 2008 Sichuan earthquake. In the latter case, 
journalists from around China refused to comply with bans against going 
to Sichuan to report on location. Windows of freedom, so to speak, have 
been flung open and media have challenged the actions of local 
government before the Propaganda Department could regain control.
    The government at all levels is concerned with public opinion and 
seeks to conceal interventions in news reporting. Those who reveal acts 
of censorship take great risks in doing so. With few exceptions, media 
respect government bans on reporting certain stories; journalists 
eschew politically sensitive reporting. Rife corruption among 
journalists and a salary scale that rewards reporters for politically 
correct reports contribute to self-censorship.\1\ Nonetheless, a few 
journalists have succeeded in shedding light on isolated problems and 
acts of injustice; this has been done by reporting the news before the 
government issues a ban.
---------------------------------------------------------------------------
    \1\ Ashley Esarey, ``Speak No Evil: Mass Media Control in 
Contemporary China'', Freedom at Issue: A Special Freedom House Report, 
February 2006, http://www.freedomhouse.org/uploads/special--report/
33.pdf.
---------------------------------------------------------------------------
                     the internet and media freedom
    The growing wealth of Chinese citizens has given hundreds of 
millions of people the means to acquire new information and 
communications technologies for personal use. At least 650 million 
Chinese use cellular telephones--and more than 100 million use cell 
phones to access the Internet. Three hundred million Chinese have gone 
online, a number equivalent to the population of the United States. 
There are now over 160 million bloggers in China, according to Chinese 
official statistics released early this year. Content analysis research 
has shown that political expression in Chinese blogs is much freer than 
mass media; debates among ``netizens'' (wangmin) pertain to a variety 
of politically sensitive issues. The number of blog sites that mention 
keywords, such as ``democracy'' and political reform'' or ``freedom of 
speech'' and ``the Internet'' has increased exponentially over the last 
five years. The organizers of social movements by members of the middle 
class in Shanghai and Xiamen or the ethno-nationalists in Tibet and 
Xinjiang have utilized blogs, emails, instant messaging, and cell phone 
text messages to rally support for causes domestically and 
internationally. These actions have made the CCP fear the power of new 
media.
    The Chinese Propaganda Department, the Ministry of Information 
Industry, the Ministry of Public Security, and the Ministry of State 
Security have been at the front line of governmental efforts to control 
the Internet through the promulgation of restrictive laws, the use of 
computerized filters to eliminate content, and monitoring by the 
police. While the government has supported e-commerce and e-government, 
it has also trained party operatives to post content in online spaces, 
with the goal of ``guiding public opinion.''
    In June 2009, the central government announced a regulation 
requiring personal computer manufacturers to install software that 
restricts Web access on all computers sold in the People's Republic. 
Called ``Green Dam Youth Escort,'' the software aimed to plug leaks 
that have spouted in the Great Firewall of China, the moniker for 
country's elaborate system of Internet controls. ``Green Dam'' was 
designed to censor pornography and politically sensitive content, but 
could also be used to collect data on individual Internet users.
    Chinese media reported the software had been installed on more than 
50 million machines. Complaints by Chinese users of the software, 
bloggers and Chinese media, however, were strident: The software, some 
argued, was a rushed job that had not been adequately tested and might 
make computers vulnerable to hackers; others expressed dismay about the 
invasion of privacy or worried they might have to pay user fees in the 
future. Pushback by the United States Commerce Department and the 
international business community may also have influenced the Ministry 
of Information Industry's June 30 decision to suspend mandatory 
installation of the software. At a July 1 celebration by activists who 
had opposed the software, artist and blogger Ai Weiwei called the 
government's change of heart a ``victory for public opinion.'' \2\
---------------------------------------------------------------------------
    \2\ Kathrin Hille, ``Chinese Bloggers Hail Green Dam Victory,'' 
Financial Times, July 1, 2009.
---------------------------------------------------------------------------
                                summary
    In the words of David Shambaugh, ``a daily battle is waged between 
the state and society over `what is fit to know.' This contest reflects 
and constitutes a central contradiction in Chinese politics--between 
the needs of a rapidly modernizing economy and pluralizing society on 
the one hand and the desire by the party-state to maintain absolute 
political power on the other.'' \3\ The outcome of this contest remains 
to be seen. In the near term, pressures are mounting for more 
information freedom. Chinese citizens, as resistance to Green Dam 
shows, have become more assertive in protecting the power they have 
gained from new communications technologies.
---------------------------------------------------------------------------
    \3\ David Shambaugh, ``China's Propaganda System: Institutions, 
Processes and Efficiency,'' The China Journal, No. 57, January 2007, p. 
25.
---------------------------------------------------------------------------
    Commercialization in China's media industry has created the 
imperative for media to please consumers in order to survive. Media 
that were once the mouthpieces of Mao Zedong's government now perform 
their propaganda role unwillingly. Commercial mass media would like to 
compete with blogs and social networking sites for the attention of the 
public. Party restrictions bar media from doing so, leaving journalists 
feeling as uncomfortable as a cat in a bag. Tight control over media 
content, in the context of Internet freedom, contributes to disbelief, 
even cynicism toward state propaganda. The CCP controls the message in 
media reports, but this no longer means the public believes the 
message.

                       Submissions for the Record

                              ----------                              


   Prepared Statement of James Fallows, National Correspondent, The 
                           Atlantic Magazine

                             july 31, 2009
    My name is James Fallows; I am a national correspondent for the 
Atlantic Monthly, returned two weeks ago to Washington, DC after a 
three-year assignment in China. During that time I wrote many articles 
about China as well as a book, and had experiences dealing with both 
public and private organizations in China as a reporter. I am sorry 
that a sudden case of flu and laryngitis prevents me from making my 
comments in person today. Instead I will send a brief statement 
covering the points I intended to make. I would welcome an opportunity 
to answer any further questions or to join you another time.
    In my introductory statement I intended to make three points about 
the current state of reportage and public discussion in China. In 
addition, I have supplied to the Commission staff reprints of two 
relevant articles I wrote for The Atlantic while in China. The first, 
called ``The Connection Has Been Reset'' (March 2008), was about the 
technological and political underpinnings of the system of Internet 
control known informally as ``the Great Firewall.'' The second, ``Their 
Own Worst Enemy'' (November 2008) examined the reasons for the Chinese 
central government's often self-defeating attempts to control the way 
it is portrayed in international media.
    The three points I offer for discussion are these:
    (1) The Chinese system of media control, as it affects foreign and 
domestic reporters working inside the country and the information 
available to the Chinese public about their country and the outside 
world, should not be thought of as consistent, airtight, centrally 
coordinated, or reflecting a carefully thought-out long-term strategy. 
Instead it should be understood as episodic, hit-or-miss, rigid in some 
places and lax in others, and highly variable by region, time, and 
personality of those in charge.
    Anyone who has worked in China has illustrations of apparently 
illogical or inexplicable variations in media control policy. One day, 
a set of web sites with information about ``sensitive'' subjects will 
be blanked out by the Great Firewall; the next day, they will be 
available. During the violence in Tibet in 2008, CNN coverage was 
generally cut off as soon as anyone mentioned the word ``Tibet''; 
meanwhile, similar BBC reports were through unhindered. During that 
same period of violence, Tibet was generally closed to foreign 
correspondents; this year, during the violence in Xinjiang, the 
government organized press tours for international reporters.
    The Beijing Olympics was replete with such contradictory episodes, 
the most famous of which involved the ``authorized'' protest zones. (As 
was widely reported around the world, the central government set aside 
zones for authorized demonstrations and protests during the Games, as a 
sign of its openness and international spirit; then, local security 
authorities turned down all requests for authorization and arrested 
some people who applied.) In my own case, I dealt frequently with 
government officials who were fully aware that (for no apparent reason) 
I had been denied a regular journalist visa and was working as a 
journalist in China on a variety of ``business'' and educational visas. 
The inconsistency was fine, as long as I wasn't otherwise in trouble.
    Of course central guidance does come down about media and Internet 
censorship; of course there is some coordination. My point is that 
outsiders sometimes miss the irregularity and oddities of the 
``control'' system, which make press coverage both easier and harder. 
It is easier in that there is often a side door when the front door is 
closed. It is harder in that uncertainty about what might cause trouble 
leads people to be more careful than they might otherwise be. If you 
never know where the line is, you take care not to cross it.
    (2) The government is most successful in justifying its media 
controls when it positions them as defenses against foreign criticism 
of China as a whole. This approach is of course not unique to China or 
its government. But in my experience it is particularly important to 
bear in mind there, because the theme comes up so often in the foreign 
reporters' work within China and is always a potential factor.
    For reasons familiar to all of us, daily life in modern China 
doesn't naturally support strong feelings of nationalistic unity among 
the highly diverse and often fractious billion-plus people of the 
country. People are focused on their families, their businesses, they 
regional or local rivalries or ambitions. It is easiest to make people 
feel and at as ``we Chinese'' in response to the idea of being 
disrespected, unfairly treated, or victimized by the outside world. 
Again, unity in response to foreign challenge is hardly unique to 
China. But the role of the Western press is unusually 
important here, since in my experience it is one of the most reliable 
levers the government can pull to induce nationalistic solidarity. (The 
other reliable lever is anti-Japanese sentiment, but that's a problem 
of its own.)
    I believe that every foreign reporter working in China has had the 
experience of crossing a certain line in reaction from the Chinese 
public--especially from the ``netizen'' part of the public with 
recourse to blogs and email. If discussion of certain problems in China 
is seen as ``pro-Chinese,'' in the sense of helping Chinese people deal 
with local pollution issues (or unfair labor practices, or water 
shortages, etc.), that is fine. But at a certain point, discussion of 
problems can shift to being seen as ``anti-Chinese'' or, in the famous 
epithet, ``hurting the feelings of the Chinese people.'' This is 
obvious in starkest form in the organized effort against CNN because of 
its coverage of the Tibetan violence and the disruption of the Olympic 
torch relay. I believe awareness of potentially hostile and voluminous 
reaction from web-based fenqing, the much discussed ``angry youth,'' is 
somewhere in the consciousness of most foreign reporters working in 
China--along with the numerous friendships and supportive relationships 
most foreign reporters make with individual Chinese people.
    I mention this phenomenon because of the unusual public-private 
interaction it seems to represent. When web-based campaigns against 
foreign reporters or news organizations flare up in China, they seem 
genuinely to involve private individuals or informal bands of netizens. 
But clearly the government plays a crucial role in setting the 
conditions for this reaction: in its control of information and media, 
for instance in the educational program which gives nearly all citizens 
of the PRC the same understanding of the history of Tibet; in the 
version of the news that comes through the officials newspapers and 
broadcast channels; and in the ``hurting the feelings of the Chinese 
people'' denunciations it issues of the foreign media.
    The most recent illustration of this pattern is domestic discussion 
of the H1N1 ``swine flu'' issue. China's quarantine policy is far 
stricter than that of any other country, and out of line with what the 
WHO and other organizations have recommended. But I found that when I 
pointed this out in dispatches for the Atlantic, I was deluged with 
complaints from Chinese netizens about ``disrespect'' for a government 
that was being far more scrupulous with its public health preparations 
than was the lax Western world.
    In short, the Chinese public is highly intelligent, argumentative, 
eager to gain and exchange information. But it operates in 
circumstances that favor the government's ability to shunt the 
discussion away from criticism of its policies.
    (3) The spread of the Internet through China has made it both 
harder and easier for the government to keep discussion within limits 
it desires. I know that other witnesses intend to address this issue, 
and I discuss it at length in my ``Connection Has Been Reset'' article 
that I have submitted. I believe that the outside world is well past 
the period in which people automatically assumed that the spread of 
information technology would undermine authoritarian regimes. The 
additional point I'd made about press coverage is that the same dual 
aspect affects foreign reporters' work in the country. It is vastly 
easier to make connections and find information now, because of the 
Internet and related technology, than it was in the mid-1980s when I 
first worked in East Asia. But now reporters have the complication of 
knowing that their work is being read not simply by government minders 
but by large number of Chinese readers, some of whom know just enough 
English to misunderstand what a report is saying. This is a complex 
phenomenon that I'll be happy to discuss in other circumstances.
    There are many more aspects of this complex topic to examine. I am 
sorry not to be able to join you in person today, but I look forward to 
another opportunity. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
